CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amici Curiae of
Concerned Women for America, et al., supporting the Petitioners in No. 19-251,
Americans for Prosperity Foundation v. Xavier Becerra, Attorney General of California;
and No. 19-255, Thomas More Law Center v. Xavier Becerra, Attorney General of
California contains 7,267 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
February 25, 2021
/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

